<html>
<title> - THE FRONTIERS OF HUMAN BRAIN RESEARCH</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                            THE FRONTIERS OF
                          HUMAN BRAIN RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JULY 31, 2013

                               __________

                           Serial No. 113-45

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-224PDF                 WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas

















                            C O N T E N T S

                        Wednesday, July 31, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Steve Stockman, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    50
    Written Statement............................................    51

                               Witnesses:

Dr. Story Landis, Director of National Institute of Neurological 
  Disorders and Stroke, National Institutes of Health
    Oral Statement...............................................    12
    Written Statement............................................    16

Mr. Michael McLoughlin, Deputy Business Area Executive, Research 
  and Exploratory Development at Applied Physics Laboratory, 
  Johns Hopkins University
    Oral Statement...............................................    27
    Written Statement............................................    29

U.S. Air Force Master Sergeant Joseph Deslauriers Jr.
    Oral Statement...............................................    35

Dr. Marcus Raichle, Professor of Radiology, Neurology, 
  Neurobiology and Biomedical Engineering, Washington University
    Oral Statement...............................................    35
    Written Statement............................................    38

Dr. Gene Robinson, Director, Institute for Genomic Biology, 
  Swanlund Chair, Center for Advanced Study Professor in 
  Entomology and Neuroscience, University of Illinois, Urbana-
  Champaign
    Oral Statement...............................................    42
    Written Statement............................................    44

Discussion.......................................................    49

             Appendix I: Answers to Post-Hearing Questions

Dr. Story Landis, Director of National Institute of Neurological 
  Disorders and Stroke, National Institutes of Health............    62

Dr. Marcus Raichle, Professor of Radiology, Neurology, 
  Neurobiology and Biomedical Engineering, Washington University.    69

Dr. Gene Robinson, Director, Institute for Genomic Biology, 
  Swanlund Chair, Center for Advanced Study Professor in 
  Entomology and Neuroscience, University of Illinois, Urbana-
  Champaign University...........................................    73

             Appendix I: Additional Material for the Record

Submitted statement by Representative Lamar Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    76

 
                 THE FRONTIERS OF HUMAN BRAIN RESEARCH

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 11:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bucshon. The Subcommittee on Research and 
Technology will come to order.
    Good morning. Welcome to today's hearing entitled ``The 
Frontiers of Human Brain Research.'' In front of you are 
packets containing the written testimony, biographies, and 
truth-in-testimony disclosures of today's witnesses.
    I now recognize myself for an opening statement.
    I would like to welcome everyone to today's Research and 
Technology Subcommittee hearing on the frontiers of human brain 
research. As a doctor, I know firsthand there are many 
complexities surrounding the human body and understanding the 
human brain is one of the most challenging problems facing the 
scientific and medical communities. This problem will likely 
require an interdisciplinary and multifaceted approach with the 
right scientific questions being asked and debated and clear 
goals and endpoints being articulated. The creative drive of 
American science is the individual investigator, and I have 
faith they will continue to tackle, understand, and contribute 
original approaches to these problems.
    We are hopeful that brain research will have important 
policy implications. Brain disorders such as Alzheimer's, 
Parkinson's, autism, epilepsy, dementia, stroke, and traumatic 
brain injury have an enormous economic and personal impact for 
the affected Americans. For example, Alzheimer's disease, a 
severe form of dementia and the sixth leading cause of death in 
the United States, affects the 5.1 million Americans that have 
the disease along with their friends and family who watch their 
loved one suffer from its effects. And my best friend from high 
school's grandmother was one of those people.
    I want to stress the personal effect of this research, 
which to me is much more important as a medical doctor but 
cannot be easily quantified. During my visits to Walter Reed 
Medical Center and subsequently Bethesda after Walter Reed 
closed, I have met with many brave young men and women who 
unfortunately have suffered traumatic brain injury as well as 
lost limbs because of their service to our country in Iraq and 
Afghanistan. Technologies, like the ones we will hear about 
today, will allow these young men and women to transition to 
the workplace, enabling these individuals to lead productive, 
independent, and fulfilling lives. This is why I think it is so 
important to continue to support research.
    I want to stress my support for brain science research, in 
particular understanding neurological disorders and diseases 
from an interdisciplinary perspective. As our witnesses will 
testify today, brain science has benefited enormously from 
fields as diverse as applied mathematics, computer science, 
physics, engineering, molecular biology, and chemistry. More 
importantly, basic science research results from NSF-funded 
research will be the future experimental tools for hypothesis-
based, data-driven research for brain science researchers.
    I see this as an important opportunity for continuing 
interdisciplinary work between the various Federal science 
agencies, including NSF, NIH, and DARPA and I hope to see more 
collaboration and productive research opportunities.
    Our witnesses today reflect the wide spectrum of research 
in brain science and the richness in this field. I would like 
to thank the witnesses for being here today and taking the time 
to offer their perspectives on this important topic. At this 
point, I also would like to thank Ranking Member Lipinski and 
everyone else for participating in today's hearing.
    And I will now recognize Ranking Member Lipinski for his 
opening statement.
    [The prepared statement of Mr. Bucshon follows:]

Prepared Statement of Subcommittee on Research and Technology Chairman 
                             Larry Bucshon

    I would like to welcome everyone to today's Research and Technology 
Subcommittee hearing on the frontiers of human brain research.
    As a doctor, I know firsthand there are many complexities 
surrounding the human body and understanding the human brain is one of 
the most challenging problems facing the scientific and medical 
communities. This problem will likely require an inter-disciplinary and 
multifaceted approach with the right scientific questions being asked 
and debated and clear goals and endpoints being articulated. The 
creative drive of American science is the individual investigator, and 
I have faith they will continue to tackle, understand and contribute 
original approaches to these problems.
    We are hopeful that brain research will have important policy 
implications. Brain disorders such as Alzheimer's, Parkinson's, autism, 
epilepsy, dementia, stroke, and traumatic brain injury have an enormous 
economic and personal impact for affected Americans.
    For example, Alzheimer's disease--a severe form of dementia and the 
sixth leading cause of death in the US--affects the 5.1 million 
Americans that have the disease along with their friends and family who 
watch their loved one suffer from its effects. The average annual cost 
of care for people with dementia over 70 in the US was roughly between 
$157 and $210 billion dollars in 2010.
    More importantly, I want to stress the personal effect of this 
research, which to me is much more important as a medical doctor, but 
cannot be easily quantified. During my visits to Walter Reed Medical 
Hospital, I have met many brave young men and women who have 
unfortunately lost their arms and legs in Iraq and Afghanistan. 
Technologies, like the ones we will hear about today, will allow these 
young men and women to transition to the workplace, enabling these 
individuals to lead productive, independent, and fulfilling lives. This 
is why I think it's so important to continue supporting this research.
    I want to stress my support for brain science research, in 
particular understanding neurological disorders and diseases from an 
interdisciplinary perspective. As our witnesses will testify today, 
brain science has benefited enormously from fields as diverse as 
applied mathematics, computer science, physics, engineering, molecular 
biology, and chemistry. More importantly, basic science research 
results from NSF funded research will be the future experimental tools 
for hypothesis-based data-driven research for brain science 
researchers.
    I see this as an important opportunity for continuing 
interdisciplinary work between the various federal science agencies, 
including the NSF, NIH and DARPA and I hope to see more collaboration 
and productive research opportunities
    Our witnesses today reflect the wide spectrum of research in brain 
science and richness in this field. I'd like to thank the witnesses for 
being here today and taking time to offer their perspectives on this 
important topic. I'd also like to thank Ranking Member Lipinski and 
everyone else participating in today's hearing.Before I conclude 
today's hearing, I would like to recognize and thank Melia Jones. I 
appreciate your work on this Subcommittee for the last 2 years, and 
wish you all the best in your future endeavors. We hate to lose you, 
but Texas will gain a good friend.

    Mr. Lipinski. Thank you, Chairman Bucshon, for holding this 
hearing and to all the witnesses for being here today. And I 
thank you for your flexibility in moving this hearing back an 
hour.
    I don't think there is anyone in this room who hasn't 
marveled at the complexity of the human brain. I know opening 
up with that sentence lends itself to a lot of jokes about 
Congress, so you can insert your own joke here, but what we are 
really concerned about are brain diseases especially that 
befall so many people. And we all know it may one day wreak 
havoc on our own lives, in addition to that, obviously other 
brain injuries that occur. And especially as lawmakers, we are 
responsible for making sure our returning servicemen and women 
are taken care of after they have so bravely risked their own 
lives, especially we worry about the thousands of returning 
from Iraq and Afghanistan and previous conflicts with traumatic 
brain injury and long-term mental distress.
    In April of this year, President Obama announced the BRAIN 
Initiative, an interagency collaboration between DARPA, NIH, 
and NSF to accelerate what we know about human brain function 
and its connection to behavior. Each of these agencies has 
important research activities that it can bring to the table. 
The NSF, for example, will help further research developing 
probes on a molecular scale that can map the activity of neural 
networks. They can also bring computer scientists to the task 
as well to help understand the functions of the estimated 100 
billion neurons and 100 trillion connections within the human 
brain.
    As we take a broad look at Federal support for neuroscience 
research in general and the BRAIN Initiative in particular, I 
believe it is valuable for the Members of this Committee to 
hear from experts who can speak to the roles of all key 
agencies, including DARPA and NIH. Three of the witnesses are 
highly qualified to speak to NIH's role. Mr. McLoughlin has 
long been funded by DARPA.
    However, the only BRAIN Initiative agency wholly within 
this Committee's jurisdiction is the National Science 
Foundation. It is unfortunate that the NSF was not invited to 
participate on today's panel, but I am especially grateful to 
Dr. Robinson for being here today to help us better understand 
NSF's unique and important role in supporting neuroscience 
research. And I know that Chairman Bucshon had duly noted the 
important role of NSF in his opening statement.
    The idea of connecting what is happening in our brain at 
the molecular level with how we feel, think, and remember and 
act is known as integrating across scales. We can bring to the 
neuroscience table all the smart computer scientists, 
engineers, and mathematicians we can find, and we do need them, 
but if we don't also have the behavioral experts there to 
validate brain function models with what we know about actual 
human behavior, those models might not be worth the laptops 
they are written on.
    As the one agency that funds basic research in all fields 
of science and engineering, including the social and behavioral 
sciences, integrating across scales is one of the strengths 
that NSF brings to the BRAIN Initiative.
    While none of the witnesses were asked to address 
educational needs and opportunities in neuroscience, this is 
also an area in which NSF leads the way. And I have some 
questions related to STEM Ed, and I suspect some of my 
colleagues will as well.
    Thank you again to Chairman Bucshon for holding this 
hearing and I look forward to the testimony and the discussion.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Thank you Chairman Bucshon for holding this hearing and to all of 
the witnesses for being here.
    I don't think there's anybody in this room who hasn't marveled at 
the complexity of the human brain. With that wonder also comes worry 
about the brain diseases that befall so many people, and that we all 
know could someday wreak havoc on our own lives. And as lawmakers 
responsible for making sure our returning servicemen and women are 
taken care of after they have bravely risked their own lives, we worry 
about the thousands who have returned from Iraq, Afghanistan, and 
previous conflicts with traumatic brain injury and long-term mental 
distress.
    In April of this year, President Obama announced the BRAIN 
Initiative, an interagency collaboration between DARPA, NIH, and NSF to 
accelerate what we know about human brain function and its connection 
to behavior. Each of these agencies has important research activities 
that it can bring to the table. The NSF, for example, will help further 
research developing probes on a molecular scale that can map the 
activity of neural networks. They can also bring computer scientists to 
the task as well, to help understand the functions of the estimated 100 
billion neurons and 100 trillion connections within the human brain.
    As we take a broad look at federal support for neuroscience 
research in general, and the BRAIN Initiative in particular, I believe 
that it is valuable for the Members of this Committee to hear from 
experts who can speak to the roles of all key agencies, including DARPA 
and NIH. Three of the witnesses are highly qualified to speak to NIH's 
role, and Mr. McLoughlin has long been funded by DARPA. However, the 
only BRAIN Initiative agency wholly within this Committee's 
jurisdiction is the National Science Foundation. It is unfortunate that 
NSF was not invited to participate on today's panel, but I am 
especially grateful to Dr. Robinson for being here to help us better 
understand NSF's unique and important role in supporting neuroscience 
research.
    The idea of connecting what's happening in our brain at the 
molecular level with how we feel, think, remember, and act is known as 
``integrating across scales.'' We can bring to the neuroscience table 
all of the smart computer scientists, engineers, and mathematicians we 
can find. And we do need them. But if we don't also have the behavioral 
experts there to validate brain function models with what we know about 
actual human behavior, those models might not be worth the laptops 
they're written on.
    As the one agency that funds basic research in all fields of 
science and engineering, including the social and behavioral sciences, 
integrating across scales is one of the strengths that NSF brings to 
the BRAIN Initiative. While none of the witnesses were asked to address 
educational needs and opportunities in neuroscience, this is also an 
area in which NSF leads the way. I have questions related to STEM 
education and I suspect some of my colleagues will as well.
    Thank you again Chairman Bucshon for holding this hearing and I 
look forward to the testimony and discussion.

    Chairman Bucshon. Thank you.
    I now recognize Mr. Stockman.
    Mr. Stockman. I just want to thank the Chairman, Mr. 
Bucshon, for doing this. And as I mentioned to you earlier, I 
took care of my father for eight years who had Alzheimer's, 
and, as you know, some say that disease is hereditary, so hurry 
up and do your work.
    And the other thing is that I was listening to National 
Public Radio which commented on the President's Initiative, and 
I hope that it is more than just window dressing that we have 
here and that we have real research. I appreciate you coming 
out today and I really appreciate the Ranking Member and the 
Chairman for having this hearing. I yield back. Thank you.
    Chairman Bucshon. Thank you. If there are Members who wish 
to submit additional opening statements, your statements will 
be added to the record at this point.
    At this time I am now going to introduce our witnesses.
    Our first witness today is Dr. Story Landis. Since 2003, 
she has been the Director of the National Institute of 
Neurological Disorders and Stroke. Prior to her appointment at 
NINDS for short, she was a Professor and Chairwoman of the 
Department of Neurosciences at Case Western Reserve University 
School of Medicine in Cleveland, Ohio. She has made many 
fundamental contributions to understanding the developmental 
interactions required for synapse formation. I understand that 
but many in the room may not. But she is an elected fellow of 
the American Academy of Arts and Sciences and the Institute of 
Medicine for the National Academy of Sciences.
    Our second witness today is Dr. Michael McLoughlin who is a 
Deputy Business Area Executive for the Johns Hopkins University 
Applied Physics Laboratory Research and Exploratory 
Development--in the exploratory development area. In addition 
to this position, Mr. McLoughlin teaches both program 
management and systems engineering at Johns Hopkins University 
Whiting School of Engineering. In 2009 he assumed leadership 
responsibilities for DARPA's revolutionizing prosthetics 
program and is leading efforts to transition use of these 
technologies to human subjects. Mr. McLoughlin is a graduate of 
the University of Delaware where he received both his 
bachelor's and master's degrees.
    Also with him is Air Force Master Sergeant Joseph 
Deslauriers, an Explosive Ordnance Disposal Technician who also 
will be giving a short testimony on how some of these 
technologies have impacted the quality of his own life. He 
earned the Silver Star for Gallantry in Action while serving in 
Afghanistan on September 23, 2011.
    Our third witness is Professor Marcus Raichle, who is 
currently the Professor of Radiology, Neurology, Neurobiology 
and Biomedical Engineering at Washington University in St. 
Louis. Professor Raichle has led world-class efforts to define 
the frontiers of cognitive neuroscience through the development 
and use of functional brain imaging techniques. He has also 
pioneered the concept of the default mode of brain function and 
has invigorated studies of intrinsic functional activity. 
Professor Raichle is a member of the U.S. Academy of Science, 
the American Academy of Arts and Sciences, and the Institute of 
Medicine.
    And our final witness is Professor Gene Robinson, who 
received his doctorate degree from Cornell in 1986, and since 
1989 has been on the faculty of the University of Illinois in 
Urbana-Champaign where he is the University Swanlund Chair and 
the Director for Genomic Biology. He has pioneered the 
application of genomics to the study of behavior. He is the 
author or co-author of over 250 publications. Professor 
Robinson is a member of the U.S. National Academy of Science 
and the American Academy of Arts and Sciences. In addition, he 
received the National Institute's Pioneer Award.
    Thanks again for all of our witnesses for being here this 
afternoon. It is a very distinguished panel. I am looking 
forward to your testimony.
    As our witnesses should know, spoken testimony is limited 
to five minutes after which the Members of the Committee will 
have five minutes each to ask questions.
    I now recognize Dr. Landis for five minutes to present her 
testimony.

                 TESTIMONY OF DR. STORY LANDIS,

                 DIRECTOR OF NATIONAL INSTITUTE

             OF NEUROLOGICAL DISORDERS AND STROKE,

                 NATIONAL INSTITUTES OF HEALTH

    Dr. Landis. Good morning, Chairman Bucshon, Ranking Member 
Lipinski, and embers of the Subcommittee. I want to thank you 
very much for your opportunity to provide testimony today on 
the frontiers of human brain research. This is an incredibly 
exciting area of research with profound implications for our 
basic understanding of the brain and also for treating brain 
disorders.
    So as you have heard, many people regard understanding how 
the human brain works as the last great frontier in biological 
and biomedical sciences. The brain is an extraordinary organ 
that allows us to see, hear, reason, remember. The best 
estimates are that these functions and many others are 
performed by somewhere between 80 and 100--100 billion nerve 
cells that are connected with each other, each nerve cell, 
neuron, making more than 1,000 connections with other neurons.
    Now, it is not just chaos in the brain. These neurons are 
organized in neural circuits. You could almost think of them as 
living modifiable circuit boards which process and integrate 
different kinds of information to control behavior, mental and 
physical. And in fact, if you think about the brain, basically 
the brain is the organ that controls all kinds of behavior.
    In the past decade we have made extraordinary advances in 
developing tools to visualize brain circuits and to dissect 
their function. One of these tools is diffusion magnetic 
resonance imaging, and this reveals medium to long-range 
connections between brain regions and therefore provides a 
wiring diagram of the human brain. And NIH is currently funding 
the human brain Connectome Project to create a publicly 
available database of wiring diagrams for 1,200 people, which 
will serve as a resource for scientists throughout the world. 
If I could have the slide please. Can you make it rotate?
    [Slide.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

    This is one piece of the human Connectome that was obtained 
as part of the Connectome Project. Each of those different-
colored fibers reflects a different set of connections. This is 
only a subset of the connections and it is focused primarily on 
the connections that actually wire together different parts of 
the cortex. In other studies, we have learned how to actually 
manipulate the function of neurons, specific populations of 
neurons and circuits and to define their particular roles.
    Now, neuroscience, the study of the brain, has from its 
very earliest origins been multidisciplinary. Neuroanatomy and 
neurophysiology and creating that image that you just saw 
required physicists, engineers, mathematicians, statisticians, 
as well as a neuroscientists. And just as the science is 
multidisciplinary, support for brain science is provided by 
multiple agencies as appropriate for their mission.
    So consistent with the NIH's mission to seek fundamental 
knowledge about the nature and behavior of living systems and 
the application of that knowledge to enhance health, lengthen 
life, and reduce illness, NIH funds brain research from the 
very most basic like ion channels and how neurons get generated 
during development, how you turn stem cells into neurons to 
Phase III clinical trials.
    Now, my Institute, NINDS, funds research on a large number 
of neurological disorders, including amyotrophic lateral 
sclerosis--Lou Gehrig's disease--Parkinson's disease, and 
Alzheimer's disease. These are inexorably progressive disorders 
that take away our ability to move, reason, and remember. And 
we also fund research on a host of rare diseases. We are making 
progress. Stroke prevention and treatment reduced death from 
stroke by 40 percent between 1999 and 2009. We have treatments 
for multiple sclerosis that actually slow progression. We have 
symptomatic treatments for Parkinson's and many effective drugs 
that stop seizures.
    The NINDS works closely with many other NIH institutes to 
ensure that we are an aggregate making the best possible 
investment in brain sciences. There are also strong and 
effective collaborations between NIH and other agencies. Nine 
NIH institutes and seven NSF directorates support an innovative 
grant program, collaborative research, and computational 
neuroscience, and this grant program requires a wet bench 
experimentalist working with someone who is a theoretician.
    So progress in understanding how the human brain works and 
addressing diseases that affect the brain will require the 
development of new tools to allow us to get a dynamic picture 
of how the brain works in real time, how the individual cells 
and complex neural circuits interact, and how do they do it at 
the speed of thought? And we simply don't have the tools to 
know how to do this. That is the goal of the BRAIN Initiative, 
brain research advances through innovative neurotechnologies.
    Thank you very much for your attention.
    [The prepared statement of Dr. Landis follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much.
    Now, I recognize Mr. McLoughlin for his testimony.

              TESTIMONY OF MR. MICHAEL MCLOUGHLIN,

                DEPUTY BUSINESS AREA EXECUTIVE,

              RESEARCH AND EXPLORATORY DEVELOPMENT

                 AT APPLIED PHYSICS LABORATORY,

                    JOHNS HOPKINS UNIVERSITY

    Mr. McLoughlin. Chairman Bucshon, Ranking Member Lipinski, 
Members of the Subcommittee, thank you for the opportunity to 
come and talk to you today and to tell you about some of the 
progress that we have made in the area of brain-controlled 
prosthetics.
    This program was initiated in 2005 by DARPA to provide 
enhanced capabilities for soldiers who had experienced upper 
extremity amputations. We have also since included patient 
populations that are affected by spinal cord injury or other 
neurodegenerative conditions which prevent them from using 
their natural limbs.
    The objective of this program was to develop--is to develop 
a prosthetic limb that really has all the capability of our 
natural limb system. And so the challenge is to provide a level 
of functionality that begins to rival that of what was lost due 
to the amputation.
    In conducting this work, we have had to work with--had the 
fortune to work with multiple government agencies, including 
the NIH, who you just heard from, as well as a team of 
researchers across this country that have totaled over 30 
different organizations that range from research groups doing 
basic research to very applied engineering and to work across 
those groups in order to solve this challenge.
    So in other words, basically four major challenges that we 
are addressing here, the first one was to develop a prosthetic 
limb, as you see here, and that Sergeant Deslauriers is wearing 
that can mimic the function of the natural arm. And we had to 
do that in a form factor that matches the natural limb, so 
tremendous set of engineering challenges here.
    The second challenge was to be able to control the limb. So 
we all do very complex things with our arms and we do it very 
naturally. We don't even think about it. For a prosthetic user, 
these become very difficult, requiring tremendous 
concentration. And yet our brains do it every day without 
thinking. So the major focus of our programs has been looking 
at direct interfaces with the brain in order to control the 
limb system.
    The third area then is to provide sensation from the limb. 
So we can all utilize our limbs without looking at them. So I 
can reach out and grasp an object. I know where my arm is. I 
know what it is touching. A prosthetic user cannot do that. So 
what we are investigating is ways that we can feed information 
back to the brain to provide sensory perception.
    We have already demonstrated that for amputees, that 
stimulation of the residual sensory nerves can provide very 
vivid sensation to the level of the patient will actually say I 
feel my finger, okay. I am not--I don't feel where you are 
touching it; I feel my finger that was lost. We are beginning 
now to explore how do we provide that same level of capability 
to somebody that has a spinal cord injury that we can directly 
input that information into the brain.
    The last area is to provide a fundamental research 
capability that can live beyond just what we are doing in this 
program. It will provide a set of tools that can be used by 
researchers and developers of new medical devices, 
rehabilitative devices, in order to push the field of 
neuroscience forward.
    I would like to now show a quick video.
    [Video.]
    This is Tim Heans at the University of Pittsburgh, one of 
our research participants. He was the first person to drive 
this limb using just a brain computer interface. Tim was 
injured in a motorcycle accident and is paralyzed from the neck 
down, and he is controlling his arm strictly by thinking about 
where he wants it to go. And so this is after about actually 
just about a day of working with the arm. And here you see him 
reaching out to one of the members of the research team, and 
when his girlfriend saw this, she said I want to try this. And 
so she got up and for the first time since his injury, Tim was 
able to actually reach out and physically interact with another 
human being. And this was a tremendous impact to Tim and to his 
girlfriend. And Tim, when you hear him talk, will actually say 
I will reach my arm out to touch her. So it gives you a sense 
of the meaning to these patients.
    [The prepared statement of Mr. McLoughlin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. McLoughlin. I am very fortunate today to have with me 
Master Sergeant Deslauriers, who has been one of our research 
participants, and I would like to give him a moment to tell you 
about his experiences working with the arm.

          TESTIMONY OF U.S. AIR FORCE MASTER SERGEANT

                     JOSEPH DESLAURIERS JR.

    Sergeant Deslauriers. Again, Chairman, I would like to echo 
my thanks for the opportunity to speak with the panel today.
    It has been about a year since I have been working with the 
limb after my injury on September 23, 2011. When you lose three 
limbs at once, it is very difficult to figure out how you are 
going to interact with the world around you now. I was--I am a 
husband, I am a father. How am I going to hold my child? How am 
I going to interact? And when the opportunity came up to work 
with the gentleman from Johns Hopkins University, I kind of 
jumped at the chance to aid in the research of the arm, and it 
was an honor for me to help with the advancement of prosthetics 
for upper limbs.
    Working with the arm, it has been amazing because the limbs 
that we have now for upper extremities are not very versatile. 
They don't have many degrees of movement. I will get a wrist 
turn and maybe a pinch, but with this, I can open my hand. I 
can rotate my wrist. I can grab something. And it is amazing to 
have something that you can manipulate with your residual limb 
and eventually with your brain. It gives you that confidence 
and that independence to get back into the work field and 
continue to serve your country in whatever manner be so. Thank 
you.
    Chairman Bucshon. Thank you very much. And thank you again 
for your service to your country. It is very much appreciated.
    I now recognize Professor Raichle for five minutes to 
present his testimony.

                TESTIMONY OF DR. MARCUS RAICHLE,

               PROFESSOR OF RADIOLOGY, NEUROLOGY,

            NEUROBIOLOGY AND BIOMEDICAL ENGINEERING,

                     WASHINGTON UNIVERSITY

    Dr. Raichle. Chairman Bucshon, Ranking Member Lipinski, and 
Members of the Committee, thank you so much for inviting me to 
participate in this hearing to discuss future prospects for 
neuroscience research.
    Having been involved in neuroscience research for the past 
45 years, and must say that I am--my life has been--I have been 
very fortunate to experience an absolute revolution in the way 
we think about and look at the human brain. And this of course 
came about in the 1970s when x-ray computed tomography, CT, the 
CAT scan was introduced. It not only changed the world of 
neurology in which I work, but also it promoted thinking along 
the lines of other ways in which to obtain images of organs of 
the body and particularly the human brain.
    The first to appear on the scene was positron emission 
tomography or the PET scan which was invented in our laboratory 
in the early 1970s and followed thereafter by the development 
of magnetic resonance imaging. And both of those techniques 
have matured tremendously over the intervening years and are 
providing us with spectacular information on the human brain 
and health and disease across the lifespan from premature 
infants to the end of life, valuable insights that were 
unanticipated when I got into this business.
    This of course is--involve the efforts of a wide range of 
highly skilled technical people in areas of physics and 
engineering and chemistry and computer science. But to me one 
of the great advances in all of this was creating the interface 
of this technology to the study of the human brain. And therein 
it called upon and benefited enormously from an understanding 
of how to describe human behavior. This is no mean task and it 
involved people at the outset beginning to study issues of 
language and linguistics and cognitive psychology and it was 
instrumental in the development of the field of cognitive 
neuroscience, which I think is a marvelous demonstration of 
integration of talent across multiple levels that is necessary 
if you are going to make any progress in this endeavor.
    Much of the imaging that one sees in the now--something on 
the order of 17,000 papers in the world literature on fMRI and 
another 14,000 involving PET, what one sees is often 
traditionally a way of looking at the brain, of asking you to 
do something and comparing it to you are not doing it and 
seeing what lights up. And so you can see this in scientific 
journals in Newsweek and Time magazine and probably on TV on 
occasion.
    And this dominated the story for quite some period of time 
and is still an important part of this, but there came a 
realization along the way that these changes that we observe, 
that which is occurring in my brain as I talk to you and in 
your brain as you listen to me, are small changes in the 
background of enormous activity. Your brain on average is about 
two percent of your body weight and yet it consumes 20 percent 
of the body's energy budget. So if you are just being a neural 
economist, you would say we better find out about what this is 
all about.
    And how this has evolved has been quite remarkable in the 
sense that this ongoing activity is noisy, and for a long time 
we just threw it away. Scientists like to get rid of noise in 
their data. And then there came the realization that this noise 
is deeply interesting, and from it, we can determine remarkable 
insights in terms of how the brain is organized in carrying on 
its activity regardless of whether you are sitting here in this 
room sleeping, driving your car, or whatever.
    So this has been a paradigm shift in the way we operate and 
think about this, this whole idea of intrinsic activity, and 
its importance is, I think, immense in terms of understanding 
the diseases of the nervous system because if you are going to 
do that, you are going to have to understand what the nervous 
system is actually doing and what it is devoting its efforts 
to.
    Now, what--much of what I have said and which I think about 
of course is of great interest to neuroscientists writ large, 
but, as was posed to me in the questions for this committee, 
what about the man in the street, the person that is concerned 
about a disability, a history of Alzheimer's and their family? 
And it is incredibly prevalent in mine. And what I can say is 
that from this work what has emerged is the ability to predict 
the onset of disease because what can't be replaced must be 
prevented.
    So in the case of Alzheimer's, the ability to anticipate 
the onset of the disease by many years using imaging materials 
which, if I had had more time, I would love to show you, but I 
think the issue of using these biomarkers of disease to 
anticipate the onset of symptoms by years allows us to think 
creatively about preventing the disease before it take its 
toll. Thank you very much.
    [The prepared statement of Dr. Raichle follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much.
    I now recognize Professor--Dr. Robinson for five minutes to 
present his testimony.

                TESTIMONY OF DR. GENE ROBINSON,

            DIRECTOR, INSTITUTE FOR GENOMIC BIOLOGY,

           SWANLUND CHAIR, CENTER FOR ADVANCED STUDY

           PROFESSOR IN ENTOMOLOGY AND NEUROSCIENCE,

            UNIVERSITY OF ILLINOIS, URBANA-CHAMPAIGN

    Dr. Robinson. Good morning, Chairman Bucshon, Ranking 
Member Lipinski, and Members of the Subcommittee. I would also 
like to thank you for the opportunity to provide testimony 
today on the frontiers in human brain research and the 
importance of an interdisciplinary and interagency approach to 
neuroscience.
    Today, I will use an example from my laboratory's research 
on honeybees to address the importance of basic research on 
brain and behavior. It is necessary to understand how healthy 
brains work in order to find treatments for the many 
devastating brain disorders that afflict our society. This 
involves basic research on animal models, the type of science 
that is championed by the National Science Foundation. From 
this work, we can generate hypotheses for what changes occur in 
a dysfunctional system and then test possible interventions for 
these disorders.
    If I may have the first image, please?
    [Slide.]
    Honeybees are famous for their highly structured division 
of labor. Some bees take care of the baby bees while others 
forage outside for nectar and pollen. In addition to this 
highly structured organization, there is also a great deal of 
flexibility. Bees can switch between jobs according to the 
needs of their colony. This raises the question how can a brain 
that is the size of a grass seed produce such complex behavior? 
What does this say about our brains?
    To address this question, we developed a couple of new 
research tools. One is a new system of tracking bees with 
radiofrequency ID tags developed in my laboratory by retired 
businessman and current citizen scientist Paul Tenczar to help 
us study behavioral activity.
    The second tool is a device to study brain activity that 
comes from genomics, which is a new science that studies the 
assemblage of all of our genes. We suspected that switching 
from one job to another might involve reprogramming the bees' 
brains for the new job. This led us to interdisciplinary 
research from behavior to genomics with funding from NIH and 
USDA to sequence the bee genome. We were surprised to find that 
the way this reprogramming occurs is that the genome actually 
is very sensitive to the environment and in a very dynamic way.
    When a bee responds to events in the hive, thousands of 
genes in the brain change their activity and then the behavior 
changes. It is as if the genes are blinking on and off like 
Christmas lights, changing the amount of the brain's proteins 
that they make. It turns out that in addition to bees, other 
species, including birds, fish, mice, and humans also have 
dynamic genomes in their brain.
    Last year, I co-chaired a special meeting of the National 
Academy of Sciences and the Canadian Institute for Advanced 
Research to explore the human health implications of this 
discovery of the dynamic genome. The conference imagined a new 
interdisciplinary collaboration among psychologists, 
sociologists, political scientists, neuroscientists, and 
geneticists to understand how the experiences of childhood 
adversity affect the brain and predispose for certain types of 
brain disorders. The lesson here is that an insight from basic 
animal research is helping to address the critical question in 
human health.
    It will take the integration of a variety of types of 
research on both animals and humans to reach a complete answer, 
including research funded by the NSF Directorate for Biological 
Sciences and the NSF Directorate for Social, Behavioral, and 
Economic Sciences. The BRAIN Initiative similarly needs to 
commit to an effective blend of basic and applied research to 
provide more opportunity for transformative discoveries.
    The bee story also illustrates that some animals are 
ideally suited for the pursuit of very specific questions, 
sometimes even better than the traditional workhorses of the 
laboratory, the fruit fly or the mouse. Neuroscientists 
actually have known this for a long time. The humble squid 
essentially launched the modern era of neuroscience because its 
nerve cells are so big that their activity could be studied 
even with the primitive techniques of the 1940s. The research 
undertaken as part of the BRAIN Initiative should likewise 
benefit from a broad research agenda of model animals and model 
behaviors.
    Understanding how the brain works represents a formidable 
challenge to our collective ingenuity and dedication. With this 
challenge comes great opportunity to increase our understanding 
of brain and behavior to improve our health and the functioning 
of our society. We must remember that basic science research is 
called basic not because it is simple but because it provides 
the foundation for innovation.
    Through the united and creative efforts of biologists, 
mathematicians, engineers, physicians, and other explorers of 
the brain, big brains or little brains, we must and we will 
find the answers that we need. Thank you.
    [The prepared statement of Dr. Robinson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much.
    And thank you all for your testimony. It is fascinating. I 
am really going to be interested in seeing where the questions 
lead us today. It is going to be a fascinating discussion.
    I want to remind mebers of the committee that the rules 
limit questioning to five minutes. And at this point I will 
recognize myself for five minutes.
    There was a study, Dr. Raichle, in National Geographic 
about caffeine. I don't know if you saw that one about people 
waking up in the morning just as a sideline and studying the 
brain flow--colored brain flow of people that are decaffeinated 
and people that have caffeine, and it is true you do need your 
cup of coffee in the morning if you are chronically a caffeine 
user. It showed that.
    Dr. Raichle. Fortunately, I had mine.
    Chairman Bucshon. There you go. It was a fascinating, 
fascinating study.
    Along the similar line, you mentioned that if we could 
image diseases earlier in lives, we may predict what might be 
the future. I mean we have diseases like Huntington's chorea, 
for example, and we do know genetically what will happen. Has 
that disease or any other like that been helpful? And anyone 
else that wants to comment can also. Dr. Raichle? I mean is 
there--is that what you are talking about?
    Dr. Raichle. Not Huntington's in particular. The one that 
stands out in my mind, of course, is Alzheimer's because of the 
enormous effort to look at the changes early on realizing that 
they do occur 15, 20 years before the onset of symptoms.
    In a slide that I was hoping to show you but didn't the 
project known as the Dominantly Inherited Alzheimer's Network, 
which is studying these rare genetic variations that guarantee 
you will get Alzheimer's disease, they are rare but they 
enormously informative, you can predict in an individual when 
they are going to get the symptoms. So studying them 15, 20, 25 
years beforehand, you can begin to categorize the changes in--
of the pathology like amyloid plaques and the changes in 
metabolism, the brain atrophy that precede the onset of 
symptoms by many years.
    This opens up an opportunity to understand how the disease 
evolves but it also opens up the opportunity of slowing it down 
or preventing it. And in the case of Alzheimer's, simply 
slowing it down has an enormous benefit to family and to the 
individual and to the economic cost of that terrible disease.
    Chairman Bucshon. Do you have anything to add to that, Dr. 
Landis?
    Dr. Landis. In Huntington's disease, there are longitudinal 
studies that have been tracking people who are known to be 
gene-positive, and looking both at imaging parameters and 
psychosocial parameters, and we now have the same kind of 
understanding that is involved in Alzheimer's. Before the motor 
symptoms appear, it is very clear that there is quite a long 
prodromal period. And just like for Alzheimer's, were there 
neuro-protective therapies that had been identified, you could 
in fact treat patients before there is enough destruction of 
neurons to actually see motor symptoms. Similar studies are 
underway for Parkinson's disease.
    Chairman Bucshon. Thank you.
    Mr. McLoughlin, your team is composed of engineers, medical 
doctors, surgeons, and scientists working closely together. 
These are individuals that would not normally work together. 
What elements are required for successful interdisciplinary 
approach, I mean, in your view?
    Mr. McLoughlin. Okay. I think there is basically four 
elements that are present here that are all very important. 
First of all, we are able to leverage decades-long basic 
research in the brain. And so we have research members on our 
team that have been supported by NIH and others that have spent 
years understanding how to take a set of neural patterns in the 
brain and understand what the intent was, how to form the hand. 
And that was a obviously very important piece of this.
    The second component of this was advances and technology 
outside the field of neuroscience. So, for example, in the back 
of the Joe's hand here is a small processor which is 
essentially the same thing that most of you have in your 
smartphones right now. So it allows us to do all the very 
complex analysis in that very small package. So it can be self-
contained, portable, lightweight.
    The third component then was we--DARPA recognized that 
there was a need, so I am old enough to remember Neil Armstrong 
walking on the moon and that program was driven by a singular 
objective, which is put a man on the moon and return him 
safely. And this project has a similar objective that unifies 
the team--a very diverse team. So we have basic researchers 
through very applied engineers that are all very much focused 
on the fact of developing a prosthetic arm that works like our 
natural arm. And it is--and I can state that very concisely, 
very simply. In everything we do on the program is towards that 
objective and it doesn't matter where--you know, if you are 
working in a basic laboratory or you are doing CAT-CAM designs 
of mechanical devices somewhere.
    The fourth very critical element is the environment which 
we develop this in. So we very early on made a very conscious 
decision that we would maintain an open architecture to the 
system so that while we have our research team working on this, 
we have other research teams that are currently using pieces of 
the technology that have come out of this program, imported it 
into their laboratories, and have done that very, very easily.
    So we allow researchers to come in, modify the system, 
connect their own things to it so it makes a very easy, open 
platform so that researchers aren't having to constantly 
reinvent things in order to work in this area. So we put all 
those things together and provided, you know, the environment, 
you know, the basic science, and that singular drive in order 
to pull this whole set of players together, which we have had 
over 30 different organizations involved in this program.
    Chairman Bucshon. Great. That sounds like it has been a 
fairly cohesive effort towards a singular goal, and that seems 
like maybe your most important message.
    I am going to recognize now the Ranking Member, Mr. 
Lipinski, for his questioning.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to--before I 
begin, I want to ask unanimous consent to enter into the record 
the opening statement by Ranking Member Johnson.
    Chairman Bucshon. Without objection.
    [The prepared statement of Ms. Johnson follows:]

                  Prepared Statement of Full Committee
                  Ranking Member Eddie Bernice Johnson

    Thank you Chairman Bucshon. I'm really delighted to be here this 
morning. In my hometown of Dallas, the Center for Brain Health at the 
University of Texas at Dallas is doing important research on brain 
disorders and injuries and contributing to the Administration's BRAIN 
Initiative. I have taken a number of people to the Brain Health 
facility so we could talk to the researchers and learn more about their 
work.
    Before I entered public service, I was a psychiatric nurse at the 
VA Hospital in Dallas. This was at a time when many of our young men 
were returning from Vietnam seemingly whole on the outside, but 
suffering from acute and long-term mental health challenges that we 
only recently came to understand as post-traumatic stress disorder. 
Today, because of the life-saving measures that we have been able to 
implement in the field, thousands of young men and women have survived 
serious injuries in Afghanistan and Iraq and returned to their 
families. But many of them, and many more without any visible scars, 
suffer terribly from traumatic brain disorder and PTSD.
    The research supported by federal agencies such as NSF, NIH, and 
DARPA is essential to increasing our understanding of the human brain. 
We need to better understand when things go wrong, such as in PTSD and 
drug addiction, so that we may develop more effective treatments. But 
it's hard to determine when things have gone wrong if we don't fully 
understand the normal functioning of a healthy brain. Because the 
National Science Foundation is not limited by examining specific 
pathologies or applications, it is particularly well suited to asking 
and answering fundamental questions about normal brain function. With 
this freedom, NSF can support research such as Dr. Robinson's work on 
understanding the social behavior of honey bees. As Dr. Robinson's work 
evolved from his basic questions about honey bee behavior, the 
applications to human neuroscience became evident and NIH also began to 
fund him. This is the way it should work. As we put neuroscience in 
context at today's hearing by focusing on applications, we should not 
forget the foundation of basic research on which these advances are 
built or the agency that is the leader in supporting such basic 
research.
    Dr. Robinson, I'm sorry for putting you on the spot, but your work 
in particular illustrates another important point. Five years ago you 
published an NIH funded study on the Effects of Cocaine on Honey Bee 
Dance Behavior. If I were to look just at that title in order to judge 
the merits of your research, I might dismiss it as unworthy of taxpayer 
support. But I have confidence in NSF's and NIH's merit review process, 
a process that has become recognized worldwide as the ``gold standard'' 
for merit review. As a result, I have no doubt this is a serious study 
with real implications for understanding human addiction, an important 
issue in neuroscience. I also wonder about the significance of this 
work to better understanding honey bee colony collapse disorder that 
threatens agricultural production worldwide. I hope you will have the 
opportunity during Q&A to enlighten us on this fascinating research.
    Thank you all for being here this morning and I look forward to 
your testimony.

    Mr. Lipinski. Thank you. I want to thank all of our 
witnesses and especially thank Master Sergeant Deslauriers for 
his service to our country.
    I want to start with Dr. Landis. What are the distinctive 
roles of the Federal partners in the BRAIN Initiative? And the 
second part is who is managing the program ensuring that the 
work is coordinated?
    Dr. Landis. That is an excellent question. There are three 
Federal partners that are currently involved: NIH, NSF, and 
DARPA. There is an interagency working group on neuroscience 
that has been set up to look at interests of many more Federal 
agencies in brain research, and they have written a report 
which is not yet public which has recognized that the BRAIN 
Initiative or projects like that are a critical part not just 
for those three agencies but for all agencies.
    There are commitments that are made for Fiscal Year 2014 
from the three agencies. NIH is in the process of planning what 
those initiatives will look like. We expect a report early in 
September. And on that committee--NIH committee sit ex officio 
members from DARPA and from NSF. NIH has been involved in the 
NSF planning. And so I anticipate that, based on the missions 
of those agencies, we will end up with a very complementary and 
integrated program.
    DARPA, as you have heard, has mission. We want to fly to 
the moon. We want to create a prosthetic arm. NIH has interests 
in integrative science, mammalian--not just mammalian but many 
models. And NSF has--brings to the table engineering, 
mathematics, and other approaches.
    So we believe that through collegial interaction and 
participation in the planning efforts that this will be a well-
managed project. But it isn't yet launched so we will see as it 
goes forward.
    Mr. Lipinski. All right. Thank you. I want to move to Dr. 
Robinson. In your opening statement you brought up how 
important it is to have an integrative approach to research 
topics like this, and you point out the considerable resources 
that the University of Illinois can bring to bear from 
neuroscience to social science to the computing power of the 
Blue Waters computer.
    So I would like to ask you for your vision of what is 
possible over the next ten years of this initiative over these 
disparate fields. I know it is a huge question but just to give 
us some sense of what types of questions you think we will be 
able to answer ten years from now that we can't today.
    Dr. Robinson. I can give you one general vision and that 
has to do with an approach in science is to really understand a 
particular phenomenon. One needs to be able to do two things. 
One needs to be able to observe it under natural conditions and 
then one needs to be able to manipulate it. So a lot of the 
BRAIN Initiative is geared toward developing new tools to be 
able to visualize the activity of a real live active brain and 
see it in action when it is responding to changes in its 
environment, when it is called upon to organize a particular 
activity.
    And so there is a great deal of excitement about the 
development of sensors that are at the nanoscale. We have some 
superb engineers at the University of Illinois who are getting 
mobilized to work on these now thanks to the BRAIN Initiative, 
the sensors that work at the nanoscale that will be possible 
then to record the activity of an active brain, and then in 
turn to be able to use that same inroad into the brain to be 
able to stimulate particular parts of the brain, particular 
circuits to get more specific cause-and-effect relations.
    And then finally, tying that altogether will be really 
high-powered computer models, the kind that Blue Waters will be 
able to do to be able to understand the phenomena, decompose it 
into single-unit-level understanding, as well as the whole 
level.
    Mr. Lipinski. I understand that you did a very good job of 
putting out there for us what needs to come together in all 
this. Is there anything that you would expect? What kind of--
you know, just look out there and say what would you like to 
solve? What do you think we can solve? What types of questions 
or problems or issues, is there anything that you have in mind?
    Dr. Robinson. We spoke today. Several people mentioned how 
the brain is organized hierarchically. There is different 
levels of organization. You have whole brain and you have brain 
regions, you have circuits, and then there are the individual 
neurons. We badly need to understand the relationship of those 
units to each other, those levels of organization to each 
other. How do individual neurons orchestrate their activity to 
create a circuit? How do the circuits then form a brain region 
that is functional? And then of course the whole brain.
    I take inspiration in framing this question from the 
beehive, no surprise, where we have similar questions. So you 
have a fully functioning colony and we need to understand how 
the behavior of individual bees gives rise to the whole colony 
and how the brain inside the brain--how the brain inside the 
bee gives rise to the colony and the gene inside the brain 
inside the bee inside the colony. So it is a Russian dolls 
nested-level sort of approach, and that is exactly what any 
complex system has. And the challenge is to decompose into the 
functional levels and then understand the relationship between 
those functional levels.
    Mr. Lipinski. All right, thank you.
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Hultgren for five minutes.
    Mr. Hultgren. Thank you very much. I really appreciate you 
all being here. And this is so interesting. Hang on one second. 
My phone is--Gina is taking it out. Thank you. I bumped 
something and I apologize. Bad timing.
    It is--this is so interesting for me and I really 
appreciate you all being here and want to see this as a start. 
And I want to thank the Chairman and Ranking Member for their 
efforts in starting this discussion and really figuring out 
where we can take this from here. Brain science and brain 
injury and illnesses impact so many people. We may see just the 
human toll through Alzheimer's, Parkinson's, but also for young 
people. Some of the challenges we are seeing there as well, 
even at very young ages with some educational challenges with 
brain science and--or brain diseases that we don't fully 
understand.
    So I just want to thank you so much for being here. Thank 
you for your work.
    I do want to talk briefly on some issues that I am focusing 
on right now. And, Dr. Raichle, I know you mentioned our brains 
take up about two percent of our body weight but use about 20 
percent of the energy. One of the things--and I am so thankful 
for Dr. Robinson and Blue Waters and what they are doing at the 
University of Illinois.
    What we have seen China now surpassed us in computing power 
and I am encouraging--we have got legislation that we have 
introduced to push our own abilities into exascale computing 
and recognizing how important computers are going to be for us 
to be able to continue brain research. And so I wanted to just 
get your thoughts on that. It is interesting. The human brain 
can do more parallel computations per second than our fastest 
supercomputer while riding on the energy required for a dim 
light bulb, just amazing.
    But there are really incredible challenges that we face as 
well. I know that we can reduce the amount of energy needed for 
these exascale computing challenges but also some of the 
parallelism challenges are going to be there.
    So I wondered if--I know the Human Brain Project is one of 
European Commission's Future & Emerging Technology flagship 
projects. The goal for that is to reconstruct the brain piece-
by-piece using supercomputer-based models and simulations. I 
know these models offer the prospect of a new understanding of 
the brain and its diseases leading to completely new computing 
and robotic technologies.
    I wondered, Dr. Landis, and then also Professor Raichle if 
you could talk just briefly about the European Commission. They 
have announced this ten-year plan with funding levels of, I 
think, it is $1.19 billion. What are your thoughts on this 
project? Why have they taken this approach? And do you think if 
you could get some thoughts, do think this is the correct 
approach and is it something we can learn from here as well of 
planning towards the future?
    Dr. Landis. So the two projects, the BRAIN Initiative and 
the European Human Brain Project are actually quite different 
in the approaches that they are taking and very complementary. 
I just spent the last two days at a planning meeting, an NIH 
planning meeting for the BRAIN Initiative. And what became very 
clear at that meeting was that in order to come up with 
reasonable models of how brains function, you really need to 
have data about the system itself and that models in the 
absence of the data about how the brain works really are not 
going to be terribly useful.
    So you can think of our BRAIN Initiative as producing tools 
that would allow us to collect those data and that the 
Europeans will be going ahead trying to create models perhaps 
in the absence of all the data that they need.
    Now, China has also--is also embarking on a brain project 
that seems to be the next big thing, and of course you have 
mentioned the concerns about Chinese investments in computers. 
We in the States, I think, in the neuroscience community are 
concerned about investments that other countries are making in 
neuroscience and other biomedical disciplines and about brain 
drain. And it is hard not to have young scientists see 
opportunity where funds, investments are going up instead of 
down.
    Mr. Hultgren. We do this. I am going to run out of time. 
And so I do want to follow up with all of you if that is all 
right. I have a lot of other questions and things, but I want 
to just spend my last minute or so with Master Sergeant.
    First of all, thank you so much for your service. I was 
just struck as you are talking of your commitment to continue 
to serve in new ways, and I just think that is amazing. And I 
would just ask you, and Mr. McLoughlin as well, your thoughts. 
You talked about quality of life for our women and men who have 
been injured in service that, but I wondered also if you could 
talk briefly if this could potentially have application as well 
in areas of high danger dealing with explosives and things and 
what is happening with that and if you see much of a future 
there? Certainly, we want to help people who have been injured 
but the best thing would be to prevent the injury in the first 
place, and if that very dangerous job to be done by something--
a machine like this. I wonder if you could talk briefly about 
that.
    Sergeant Deslauriers. Yes, sir, absolutely. Well, I am 
coming up on 16 years in February so I have been doing this 
long time.
    Mr. Hultgren. Thank you.
    Sergeant Deslauriers. And we kind of grew into it and, you 
know, the idea where it came about, you know, since 2000--I 
mean since 9/11. So, the quality of life for us since then, I 
kind of have a perspective of both sides being an amputee and 
then also being an explosive arms disposal craftsman where I 
see, you know, I can use this on a daily basis but then I could 
also use that on a robot to take that--take it out from a 
vehicle, send it down range, and I can take apart and IED just 
as easily as I would be doing it with my own hands.
    Mr. Hultgren. It is amazing.
    Sergeant Deslauriers. I just tried that one out for the 
first time today and I was amazed. And it opened my eyes up to 
the program aside from the prosthetic side and seeing the other 
applications of the MPL. So it is not only going to be for the 
quality of life of amputees in the future not only just 
military but also civilian and then with the application of 
putting it into the field for future use and saving lives.
    Mr. Hultgren. Great. Well, again, my time is expired. Thank 
you, Chairman. But I just want to again thank you so much. 
Master Sergeant, thank you for your work on this and your 
continued commitment to see advancement in this and protect 
future soldiers as well. So thank you all so much and look 
forward to continuing the conversation and taking this forward. 
Thank you so much.
    I yield back.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Peters for five minutes.
    Mr. Peters. Thank you very much, Mr. Chairman. And thank 
you, Master Sergeant, not just for your service but what you 
are going to help teach other people who have been similarly 
affected. And thank you for that, too.
    Two lines of questions maybe for Dr. Landis. You mentioned 
how the BRAIN Initiative can take lessons from the successful 
human genome project, which we in San Diego feel a particular 
connection to. And you include the importance of widely sharing 
data. So I am curious about what policies, including data 
management and access, you think are in place or need to be in 
place to make sure that the data generated from the BRAIN 
Initiative can be shared across disciplines and ultimately into 
the private sector?
    Dr. Landis. So the issue of data sharing has become 
increasingly important as scientists collect larger and larger 
data sets. They need to be available and accessible to 
appropriate scientists to analyze. We have excellent examples 
with the human genome project and also with ADNI, Alzheimer's 
Disease Neuroimaging Initiative, which posts on websites for 
people to see as soon as the data are collected. The human 
Connectome Project is posting data quarterly. We anticipate 
that that data sharing and mechanisms to permit it will be an 
integral part of the BRAIN Initiative.
    And part of the meeting that I just attended was dealing 
with what kinds of data do we need to share and what kinds of 
repositories do we need and how we have appropriate access? So 
it is very much on the minds of the committee.
    Mr. Peters. Top of mind in the BRAIN Initiative. That is 
the place to be.
    Dr. Landis. And you do have a representative on the 
planning committee from San Diego----
    Mr. Peters. Right. I appreciate it.
    Dr. Landis. --not a Representative, a scientist from your 
district.
    Mr. Peters. And then my second question has to do with the 
outputs from this in addition to the research itself, in 
particular training opportunities. Anyone--this could be 
anyone--training opportunities, an initiative, whether NIH has 
a role in training undergraduates and graduate students in 
other fields? And then kind of implications for new curricula 
or degree programs that we might want to institute for the next 
generation of brain scientists? And maybe, Dr. Landis, you 
could start and anyone else could respond.
    Dr. Landis. So for training, part of the NIH mission is not 
only to discover fundamental knowledge and apply that knowledge 
but also to train the next generation of biomedical 
investigators. And we feel very strongly at NIH that that 
training begins at the level of college. And if you want to 
have first-rate investigators who are well-trained, you need to 
engage their interests in college and then to be able to frame 
appropriate training programs in graduate school and 
postgraduate. So we are very much committed to that.
    In terms of the BRAIN research initiative, the discussion 
has been that if one of the most important things that we can 
do in the BRAIN Initiative is to analyze data and put together 
an understanding of how thousands or millions of neurons are 
interacting to create behavior, we really need to engage 
scientists in cross-disciplinary training that would take 
mathematicians, statisticians, and others, computational people 
to work hand-in-hand with investigators who are doing the wet 
bench work. So we talked about possible--expanding present 
training programs.
    And I will cede to someone else.
    Mr. Peters. Okay. Anyone else want to comment on that? No? 
Well, I would say again, thank you, Mr. Chairman, for the 
hearing and thanks to the witnesses for being here. Again, in 
San Diego this is one of the cornerstones of our economy is the 
relationship between basic science research and in particular 
healthcare and brain research. So we are excited about it and 
hope to be participants and beneficiaries and wish you the 
best.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Collins for his questions.
    Mr. Collins. Thank you, Chairman.
    Dr. Landis, Buffalo, New York, is a hotbed for multiple 
sclerosis. As we know, MS is a genetically based, European-
based autoimmune disease, and whether it is western New York or 
Australia, New Zealand, Europe, that is where we find it. So we 
are a hotbed for that and there has been a lot of drug 
development for relapsing-remitting, no question about it, but 
when it comes to secondary progressive MS, which you mentioned, 
which is where I would like to go, that is debilitating and an 
awful situation.
    You mentioned that the NIH has been working on something 
which would be, you said, slowing the progression. I am just 
curious. I know of one drug out there that works with a very 
tiny subset of secondary progressive patients. I know of 
another, a microparticle immune--you know, stimulant that is 
looking to stop the progression. And I am just curious. Could 
you give me some more information on what you were referring to 
as something that was slowing the progression?
    Dr. Landis. So I should have specified that I was referring 
to relapsing-remitting. We do not have treatments for 
progressive multiple sclerosis. And I would be pleased to get 
back to you with an answer for the record that would summarize 
the research in this area that NIH is conducting and what are 
the most promising avenues. We recognize that this has been an 
underexplored area. It is complicated. Not a lot of patients, 
but for the patients who have it, it is truly devastating. So I 
will get back to you with an answer.
    Mr. Collins. Well, I think it is fairly well understood 
that almost every relapsing-remitting patient----
    Dr. Landis. Becomes eventually--
    Mr. Collins. --someday they will unfortunately move into 
secondary progressive at which point that is not a good day for 
them or their families. I do think the Fast Forward Fund, which 
I am sure you are familiar with, has worked on several. I do 
know there is one drug, MIS416, which is a microparticle immune 
stimulant that is in Phase IIB trials that has promise----
    Dr. Landis. Right.
    Mr. Collins. --on secondary progressive MS, but everywhere 
in western New York, especially, you know, as people look out 
20 years and that is the typical relapsing-remitting time frame 
that it is not--so I am glad to hear you are working on it and 
I would very much like to know because I----
    Dr. Landis. And if you would like to come and visit the 
intramural program, we have several investigators working on MS 
and would be pleased to have you come and meet with them and 
see the labs and some of the kind of approaches we are taking.
    Mr. Collins. I definitely would like to take you up on 
that. It is an important part of what is going on in western 
New York and thank you very much.
    Dr. Landis. Yes.
    Mr. Collins. Mr. Chairman, I yield back.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Schweikert for five minutes.
    Mr. Schweikert. Thank you, Mr. Chairman. Have you ever 
shown up at something and it turns out to be just fascinating?
    And, Master Sergeant, thanks for spending time with us. I 
know sometimes sitting down, you know, in this sort of formal 
body can be a little nerve-racking and it is truly appreciated.
    And let's start, Dr. Landis, and this may be one for 
everyone. First off, on diseases of the brain, let's focus on 
Alzheimer's, whether it be plaque or neurons that die and there 
are firing issues, where are we in the genetic modeling? And 
some of this is going to tie back to some things Dr. Robinson 
was saying. Where do you believe we are on understanding the 
map?
    Dr. Landis. So we have identified a number of genes which 
are dominantly inherited and cause Alzheimer's. Dr. Raichle 
discussed one of them; there are several others. We have other 
genes which have been shown to increase risk. The most 
prominent of these is ApoE4. If you have two alleles ApoE4, you 
have a significantly greater risk of getting Alzheimer's. But 
there are still significant investments that can be made in 
this area, and one of the major projects from last year's 
special Alzheimer's money was to take $25 million of the $50 
million and invest it in a better understanding of risk factors 
for Alzheimer's.
    Mr. Schweikert. Okay. In that line, Dr. Robinson, was I 
listening to you properly, that some of your research or the 
externality of your research is the ability of observing the 
turning on and off of certain genetic mapping? Am I listening 
properly?
    Dr. Robinson. Yes, that is correct. So there are tools now 
to be able to look at the activity of genes. Now, these tools 
are best deployed in animal models and they need increased 
sophistication to be able to be used in humans, but the initial 
insights can be gained from the animal models.
    Mr. Schweikert. And are you--do you tie sort of your 
research into the mapping data now? Or are you still moving 
mostly, you know, moving from bees now to the next level of 
animal models?
    Dr. Robinson. So we are collaborating in a broad network to 
be able to generalize the results from animals to the study of 
adversity, the program that I mentioned where we are looking at 
how--basically how the social environment, how do experiences 
``get under the skin'' to affect biology, predispose for 
certain diseases.
    Mr. Schweikert. Okay. I am going to do one bump and then 
back--Dr. McLoughlin, where are we technologically right now on 
nerve actually communicating with an interface? And where is it 
going right now and how much world and outside and private, you 
know, research are you seeing on innovation? I mean what is 
moving right there?
    Mr. McLoughlin. Okay. So the state-of-the-art right now is 
that we have--so we currently have two patients that have been 
implanted with arrays. In these are arrays that have 100 
electrodes so, you know, we talk about trillions of neurons, so 
we are seeing very, very small populations of neurons. And so 
we can--with current technology we can put up a couple hundred 
electrodes in the brain right now, fairly close to the surface. 
And with those signals, we are able to do very high-level 
control of the arms, so reach out, grasp objects, do the, you 
know, types of things that we normally do.
    Mr. Schweikert. And where I was going--and forgive me, I 
don't remember the reference, but earlier this year, I thought 
there was some excitement because of some nano sensors that 
were being tested? And you may have to help me out on this one. 
And that actually was the direction that that technology was 
supposed to go.
    Mr. McLoughlin. Yes, so I think that--so that is where we 
are today. And the challenges that we have are--today is that 
those electrodes tend to degrade over time, so after a couple 
of years, the response goes down. So the exciting thing in some 
of these nanotechnology arrays, use of growth factors so that 
the nerves will actually--rather than pulling away from the 
electrodes, it will actually grow into the electrodes so that 
we will--I see within, you know, the next five years or so that 
we see next-generation array systems coming out that instead of 
working for a couple of years will have the potential to work 
10, 20, or 30 years in the human brain.
    Mr. Schweikert. Okay. And I am going to--well----
    Dr. Landis. If I could just add electrode manufacture is 
one of the initiatives that has come up repeatedly in the 
planning sessions for the BRAIN Initiative that we need better 
ways to record from more neurons over a longer period of time 
with more fidelity. And I--we don't know what is going to be 
recommended but----
    Mr. Schweikert. And are you finding research both in this 
country and around the world, both private and public in that 
area?
    Dr. Landis. I am--there is interest in this but it is 
pretty clear that this is a very tough area. You are talking 
material science, you are talking about connections, you are 
talking about radio communication of these rather than wires. 
And I think significant Federal investment in this area would 
make a huge difference in encouraging both investigators and 
the academic and private sector to engage.
    Mr. Schweikert. I am over my time. Thank you, Mr. Chairman.
    Chairman Bucshon. Thank you very much.
    Before I conclude today's hearing, I would like to thank 
and recognize Melia Jones. Where is she? She is back there. 
Raise your hand. I thank her for her work on this Subcommittee 
for the past two years and wish her all the best with her 
future endeavors. The committee hates to lose her but our loss, 
I guess, is Texas A&M's gain. And again, thank you very much 
for your service to the committee.
    I would like to thank the witnesses for their valuable and 
very fascinating testimony and the Members for their questions. 
The record will remain open for two weeks so some Members may 
submit some questions for a written response and additional 
comments. And I think we could go on for a long time on this 
subject. It is very fascinating.
    So the witnesses are excused and the hearing is adjourned.
    [Whereupon, at 12:16 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Story Landis


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Marcus Raichle



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Gene Robinson



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record


             Submitted statement by Chairman Lamar S. Smith

    Thank you Chairman Bucshon for holding this hearing.
    The brain is a fascinating subject, and one of the unknown 
frontiers of medical science. We all have a brain, but we barely 
understand how it works.
    But through the process of science, we have begun to understand 
what questions to ask, what tools we need and the complexities that 
underlie the trillions of connections between neurons.
    Developments in basic scientific research, such as those 
contributed by Prof. Marcus Raichle, have provided deep insight into 
how the brain is organized.
    As the witnesses will discuss today, brain science is inter-
disciplinary in nature. Advances from applied mathematics, physics, 
chemistry, computer science and engineering help provide both a 
conceptual understanding and experimental tools.
    In my view, this is where the National Science Foundation (NSF) can 
play an important role towards understanding the basic science behind 
Alzheimer's, Parkinson's, autism, stroke, dementia, traumatic brain 
injury, epilepsy and many other debilitating neurological disorders.
    I believe the NSF should support inter-disciplinary research in 
this area because the results of this research will have clear and 
direct benefits to the American people.
    The results of this research could be the foundation of new 
technologies that help wounded warriors walk again and also improve the 
quality of life for many injured Americans.
    For example, near my district in San Antonio, the Department of 
Orthopedics & Rehabilitation at Brooke Army Medical Center provides 
state of the art orthopedic and rehabilitative care to active duty 
soldiers of all services. I have met many of these wounded veterans who 
deserve a better life.
    My district is also home to several brain rehabilitation centers, 
including the Texas NeuroRehab Center and Reeves Rehabilitation Center. 
These centers treat thousands of patients who look forward to leading 
independent and productive lives.
    Research the NSF funds in robotics, statistics, fast algorithms and 
computation can be used by medical doctors to help patients perform day 
to day tasks.
    This past April, the Administration announced the Brain Research 
through Advancing Innovative Neurotechnologies Initiative, otherwise 
known as the BRAIN initiative. While I do not think many would disagree 
with the goals of this initiative, I am concerned that this is solely a 
repackaging of existing initiatives.
    Any federal initiative should include stated hypotheses along with 
clear steps towards implementation.
    I hope this hearing serves as an opportunity to work together and 
look for a bipartisan solution to funding inter-disciplinary brain-
related research.Thank you Mr. Chairman for holding this hearing, and I 
look forward to the witnesses' testimony and questions. And I yield 
back.

                                 <all>

</pre></body></html>
